FLY MILES PLUS REWARD PROGRAM
TERMS AND CONDITIONS
The Fly Miles PlusTM Reward Program (the “Program”) Terms and Conditions are separate from the terms of the San
Diego County Credit Union (“SDCCU®”) Consumer Credit Card Agreement between SDCCU and cardholder (the
“Cardholder”). However, any claim arising from or relating to participation in the Program is subject to the arbitration
provisions of the Consumer Credit Card Agreement, which require that any and all disputes are subject to binding
arbitration. Changes to the Program may happen at any time without notice and without restriction or penalty. When any
change is made, we will post revisions on the SDCCU website and on the Program website. For the most current list of
rewards available through the Program (“Rewards”), point balances, and to redeem points for Rewards, please visit the
secure Program redemption website. To access the redemption website, a Cardholder may log into such Cardholder’s
SDCCU Internet Branch online banking account, select “Self Service”, click “Fly Miles Plus,” select the card with the points
to be redeemed and then select “Redeem.”
This Program may be modified, suspended or cancelled and the redemption value of already accumulated points may be
changed at any time without notice and without restriction or penalty. SDCCU reserves the right to change the point
accrual and retention period from time to time. Changes to the Program may include, but are not limited to, modifications
which (i) increase or decrease the point value for every net purchase dollar charged and (ii) expire points based on the
point term, age and expiration date of the selected option(s). Cardholder will be notified of point accrual and/or point
expiration Program changes. Contact SDCCU for details on applicable accumulation options which are then in effect. This
Program is void where prohibited or restricted by federal, state or local law. Cardholder is responsible for any federal,
state or local income, sales, use or other taxes or gratuities.
The Program is administered by TSYS LOYALTY, an independent company that is not affiliated with SDCCU. To protect
our members’ privacy, SDCCU only works with companies that agree to maintain strong confidentiality practices. We limit
the type and use of information shared. In addition, these companies are contractually restricted from disclosing the
information to other third parties. TSYS LOYALTY assists SDCCU with administration of the Program, including
maintaining and servicing points for Rewards and fulfilling Cardholder Reward redemptions. Neither SDCCU nor TSYS
LOYALTY shall be liable for any bodily harm and/or property damage, or consequential damages that may result from
participation in the Program or of any provider's provision of or failure to provide any of the services or benefits of the
Program, for any reason. TSYS LOYALTY assumes all liability and responsibility for the provision of, or failure to provide
the stated services defined as administrative services, travel reservations and issuance of travel documentation.
ELIGIBILITY
Program eligibility is restricted to individuals who maintain a credit card account in good standing issued by SDCCU.
Cardholders must have a valid address within the United States. Points in the Program may not be used with any other
offer, promotion or discount, cannot be earned from or transferred to, any other charge, credit card, or other accounts.
SDCCU reserves the right to approve, deny or revoke a Cardholder’s participation in the Program. In the event a
Cardholder’s participation is revoked, such Cardholder’s points will be forfeited. Questions as to what constitutes Program
eligibility or a qualifying transaction, as well as any exceptions, are at the sole discretion of SDCCU. Fraud or abuse
relating to the accrual of points or redemption of Rewards may result in forfeiture of accrued points as well as cancellation
of membership in the Program.
There is a $35 non-refundable annual participation fee, which will be assessed, regardless of whether the Cardholder
earns any points. The annual fee is waived for the first year. Each year thereafter, SDCCU will waive the annual fee if the
Cardholder's net purchases totaled more than $6,000 during the previous year. “Net purchases” mean purchases of goods
and services made by Cardholder or ay authorized user of Cardholder’s account minus any returns or refunds. The annual
fee is charged to the Cardholder's SDCCU Visa® credit card on the anniversary of the Cardholder’s enrollment date in Fly
Miles Plus. Membership will be renewed automatically each year as long as the account is in good standing, unless the
Cardholder notifies SDCCU of cancellation in writing at least forty-five (45) days prior to the anniversary of the
Cardholder’s enrollment date in the Program. Once participation has been cancelled, points may not be redeemed and
will be forfeited.
EARNING POINTS
Cardholder will earn one reward point (“Point”) for each $1 of net purchases on the enrolled SDCCU account. The
maximum accumulation of Points earned on net purchases is 120,000 Points per enrollment year. This maximum does
not include Points earned as a result of certain bonus Points. Point accrual will begin upon the enrollment date in the
Voted BEST Credit Union – San Diego Union-Tribune Readers Poll
PO Box 261209 • San Diego, CA 92196-1209 • (877) 732-2848 • sdccu.com
Federally insured by NCUA
REV. 07.11.17

Page 1 of 7

SMRH:481699080.6

FLY MILES PLUS REWARD PROGRAM
TERMS AND CONDITIONS
Program. No retroactive Points will be awarded. Enrollment date is defined as the first business day after the day in which
the Cardholder is approved as a Program member.
Cardholder’s statements will include the number of Points earned, subject to adjustment as provided for in these Terms
and Conditions. Points will be deducted from Cardholder’s current total of Points earned for corresponding retail purchase
returns posted to the Cardholder’s account. Accounts may be charged for the difference in the event the Cardholder has
already redeemed unearned Points. Amounts currently in dispute and purchases made in violation of law or the terms
governing the Cardholder’s credit card account will not earn any Points. When a purchase or transaction is not a whole
dollar amount, any fraction will be rounded down to the nearest whole dollar.
Cardholders do not earn Points on balance transfers, convenience checks, cash advances or unauthorized charges,
unless specified otherwise. Points are not earned for fees of any kind, such as finance charges, late payment fees, annual
fees, over limit fees, balance transfer fees, convenience check fees, cash advance fees, Program fees or any charges
the Cardholder refuses to pay. Changes made to the above list are at the sole discretion of SDCCU.
Points are considered earned when they are posted to the redemption system. A Cardholder’s Points balance will be
updated monthly. Points may take up to 45 days to be posted following a qualifying purchase. SDCCU reserves the right
to verify and adjust Points at any time prior to or following posting and redemption. Points will be awarded and can be
redeemed for Rewards only if the Cardholder maintains the account in good standing. SDCCU has the right not to award
Points if the account is not in good standing.
POINT REDEMPTION
The Fly Miles Plus Reward Program Service Center’s (the “Service Center”) telephone number is (877) 587-8746 and
may be used for redemptions or inquiries. Redemption Specialists are available to redeem Points for Rewards and answer
redemption-related questions from 6 a.m. to 6 p.m. Pacific Time. The Service Center will be closed the following holidays:
New Year's Day, Memorial Day, Independence Day (July 4), Labor Day, Thanksgiving Day and Christmas Day.
Points will expire on December 31st at 11:59 p.m. Eastern Standard Time of the fifth year after the year they were
earned. For example, Points earned November 1, 2017 will expire December 31, 2022. Points redeemed and expired
Points will be based on a first-in, first-out process. Points earned are not transferable.
Cardholders also may redeem Points for Rewards and check Point balances online through the Fly Miles Plus Reward
Program website. Redeemed Rewards are not refundable, replaceable, or transferable for cash, credit, other Rewards,
or Points under any circumstances. SDCCU and participating merchants are not responsible for replacing lost, stolen or
mutilated gift cards/certificates or tickets. All Rewards are subject to availability. Certain Rewards are available only during
the time periods TSYS LOYALTY described in the Program communications. Merchants participating in the Program are
subject to change. Some Rewards have limited availability. Substitutions that SDCCU deems to be of equal or greater
value may be necessary. Country of item's origin may change. Merchandise Rewards cannot be shipped to addresses
that are outside the United States, PO, APO, or FPO boxes. SDCCU reserves the right to modify or cancel any Reward
at any time. All redemption Rewards will be sent to Cardholder's statement mailing address unless otherwise authorized
by SDCCU. Merchandise Rewards include applicable sales tax and shipping and handling (via first-class mail, ground
delivery or motor freight service within the continental U.S.). Allow 4 to 6 weeks for delivery of the Reward earned. In
certain circumstances the delivery time may be longer. For security reasons, parcel or motor freight couriers may contact
the Cardholder to arrange delivery of merchandise. It is the responsibility of the Cardholder to respond to the courier in a
timely manner to facilitate the delivery process. Additional shipping and handling fees for merchandise returned to vendor
due to Cardholder’s failure to make delivery arrangements are the responsibility of the Cardholder. Expedited delivery of
a Reward is available upon request for an additional fee. Any additional travel or accommodation arrangements made in
connection with any Reward will be the Cardholder's responsibility.
Points, Rewards and gift cards/certificates have no value except as used in accordance with the Terms of the Program
and Merchants participating in the Program. Rewards are void if sold for cash or other consideration. Rewards are not
replaceable if lost, stolen, destroyed or expired. Rewards are not redeemable and are void if altered, photocopied,
reproduced or damaged in any way. Reward gift cards/certificates, gift cheques, checks or currency certificates may not
be re-sold and are valid through the expiration date printed on the Reward gift cards/certificates and cannot be extended
beyond the expiration date. All Rewards are subject to availability and other restrictions may apply. All Rewards are
Voted BEST Credit Union – San Diego Union-Tribune Readers Poll
PO Box 261209 • San Diego, CA 92196-1209 • (877) 732-2848 • sdccu.com
Federally insured by NCUA
REV. 07.11.17

Page 2 of 7

SMRH:481699080.6

FLY MILES PLUS REWARD PROGRAM
TERMS AND CONDITIONS
subject to the terms and conditions of each participant’s offer materials. Gift cards/certificates may not be combined with
any other promotional offers. Fulfillment of the gift cards/certificates are the sole responsibility of the participating
merchant.
Gift cards and Gift certificates (“Gift Cards/Certificates”) are valid at participating merchants only through the expiration
date printed on the Gift Card/Certificate, except to the extent prohibited by law. Gift Cards/Certificates must be surrendered
at redemption, and no photocopies of Gift Cards/Certificates will be honored. Gift Cards/Certificates have no cash value
and may not be redeemed for cash or its equivalent, and any unused portion will not be returned as cash unless otherwise
noted on the Gift Card/Certificate. Use of any Gift Card/Certificate is subject to any additional restrictions listed on the Gift
Card/Certificate. Gift Cards/Certificates are not valid toward previous purchases, and cannot be used as payment on
existing account balances with either the participating merchant or SDCCU. Please allow 7 to 14 business days for receipt
of gift card/certificates. Reward Gift Cards/Certificates, gift cheques, checks or currency certificates may not be valid
where restricted by law. Terms and conditions for each Reward are set for in Program communications and/or on the Gift
Card/Certificates. Merchants participating in the program are subject to change. SDCCU is not responsible for the
programs or defects of any merchandise purchased using a Gift Card/Certificate or for failure of merchant to perform
because of bankruptcy, insolvency or any other reason.
Fraud or abuse relating to the accrual of Points or redemption of Rewards may result in forfeiture of accrued Points as
well as cancellation of membership in the Program. Neither SDCCU nor TSYS LOYALTY is responsible for disputes
between the Cardholder and its employees or any third party reward recipients relating to Points redemption and reward
distribution.
AIRLINE TICKETS
Cardholders may redeem Points for a scheduled ticket on a major airline carrier providing that the fares, schedules and
the ability to generate a ticket (electronic or paper) is possible through the Global Distribution System (“GDS”) and the
Airline Reporting Corporation (“ARC”). No other travel agency may be used for these offers. The major airline carrier is
chosen at the discretion of the Program Administrator. Participating air carriers are subject to change. The ticket will be a
non-refundable, non-changeable ticket valued at no more than the applicable amount listed in the accompanying
redemption chart, including taxes and destination charges. All travel itineraries and supporting documentation will be sent
via email when available, otherwise paper documents will be sent via First Class Mail. When electronic tickets are
available, and Cardholder selects paper tickets, a service fee in excess of $50 for the paper ticket will be assessed by
participating airline at time of ticketing. Additional costs, such as expedited delivery are at the Cardholder's expense. A
$25 redemption fee (or 2,500 Points) per ticket will be charged at the time of booking. All travel itineraries and supporting
documentation will be sent via email. Once Points are redeemed, the transaction cannot be reversed. If changes to an
itinerary are later necessary, the Cardholder may contact the Service Center with their request up to 72-hours prior to the
travel date. Changes may require additional costs such as airline penalty fees, increased fares, and service fees. Most
airlines will not allow traveler name changes. In addition, if the Cardholder or recipient is a no-show, the travel reward is
void.
Reservations for tickets exclude the use of charters, wholesalers, consolidators and any Internet fares that are not
published, available through the GDS or available for ticketing through a certified travel agency. Tickets may be purchased
in any individual's name, but the ticket will be sent to the Cardholder's mailing address for security reasons. Airline tickets
may not be used in conjunction with any type of coupons, vouchers, Internet fares or companion fares. Cardholder may
be subject to customs fees, excess baggage charges or any other charges assessed by governmental or other entities
as a result of travel.
Neither SDCCU nor TSYS LOYALTY will be responsible for notifying Cardholder of airline schedule changes. Traveler
should confirm flight reservations at least 72 hours prior to departure. Cardholders are responsible for informing
themselves of the requirements for and obtaining the appropriate international travel documentation, such as passports
and visas. All travelers must have valid photo identification upon check-in. Neither SDCCU nor TSYS LOYALTY assume
responsibility for advising guests of proper travel documentation
Maximum ticket values are established at all redemption levels. If the actual ticket price is greater than the maximum
allowable value, the Cardholder may pay the balance with the Fly Miles Plus Rewards Program enrolled SDCCU Visa
credit card.
Voted BEST Credit Union – San Diego Union-Tribune Readers Poll
PO Box 261209 • San Diego, CA 92196-1209 • (877) 732-2848 • sdccu.com
Federally insured by NCUA
REV. 07.11.17

Page 3 of 7

SMRH:481699080.6

FLY MILES PLUS REWARD PROGRAM
TERMS AND CONDITIONS
COMPANION TRAVEL OR NON-REDEMPTION AIR TRAVEL BOOKING
The Cardholder may elect to have the Service Center book airline tickets through a major airline carrier providing that the
fares, schedules and the ability to generate a ticket are possible through the GDS. This service will be subject to a service
fee at time of booking.
All airline tickets will be issued the same day as booking and delivered by email (electronic ticketing) or via U.S. Postal
Service, First Class Mail, postage prepaid for all paper tickets. Priority, three- to five-day delivery, Saturday or international
deliveries will be subject to additional shipping charges as imposed by the shipping vendor. All shipping charges beyond
First Class Mail will be the sole responsibility of the Cardholder's and will be charged to the Cardholder's credit card
account at time of reservation.
VACATION PACKAGES
All travel packages must be booked a minimum of 30 days prior to travel date or Cardholder will incur additional fees.
Traveler must meet the eligibility requirements established by the travel provider. Travel packages may only be booked
through the Service Center. Travel packages may not be combined with upgrade certificates, frequent traveler promotions
or other reward programs, promotional or discount certificates, vouchers, Internet fares, companion fares, group travel,
convention fares or special rate programs. Travel packages that have been booked may not be cancelled and are not
eligible for any refund in part or whole. No interim price reductions will be considered or offered once the booking has
been completed. After booking, any additional special handling may result in the imposition of additional fees.
Bookings made less than 30 days prior to a travel date will result in the imposition of a special handling fee per traveler in
addition to other fees imposed by the travel provider. Vacation packages do not include airfare unless specifically stated
as part of the package.
All reservations are subject to the conditions of carriage, supply or business of the service provider, which include
exclusions and limitations of liability. Proper travel documentation is required throughout the tour. Even though a traveler
has completed registration, it is still the responsibility of the traveler to present the required travel documentations at the
time of departure. The traveler is responsible for informing itself of the requirements for and obtaining the appropriate
international travel documentation, such as passports and visas. The Service Center assumes no responsibility for
advising guests of proper travel documentation. Neither SDCCU nor TSYS LOYALTY is responsible for the performance
of the tour operator or any service vendor.
SDCCU is not liable for any loss or penalties incurred by Cardholder when a hotel, tour operator or cruise line is sold,
ceases to exist or becomes inoperative if a tour operator cancels a vacation package for acts of nature. Vacation package
components are subject to change without notice. SDCCU is not liable for amenities, services and/or facilities not being
available due to seasonal closings, renovations, strikes, bankruptcy and/or acts of nature.
CRUISE REWARDS
All cruises must be booked a minimum of 30 days prior to sailing date or incur additional fees. Traveler must meet the
eligibility requirements established by the cruise line or travel provider. Cruise packages may only be booked through the
Service Center. Cruise packages may not be combined with upgrade certificates, frequent traveler promotions or other
reward programs, promotional or discount certificates, vouchers, Internet fares, companion fares, group travel, convention
fares or special rate programs. Cruise packages that have been booked may not be cancelled and are not eligible for any
refund in part or whole. No interim price reductions will be considered or offered once the booking has been completed.
After booking, any additional special handling may incur additional fees. Bookings made less than 30 days prior to a
sailing date, will incur a special handling fee of $100 per cabin in addition to other fees imposed by the cruise or travel
provider.
All reservations are subject to the conditions of carriage, supply or business of the service provider, which include
exclusions and limitations of liability. Proper travel documentation is required throughout the tour. Even though a traveler
has completed registration, it is still the responsibility of the traveler to present the required travel documentations at the
time of departure. The traveler is responsible for obtaining the appropriate international travel documentation, such as
passports and visas. The Service Center assumes no responsibility for advising guests of proper travel documentation.
Neither SDCCU nor TSYS LOYALTY is responsible for the performance of the tour operator or any service vendor.
Voted BEST Credit Union – San Diego Union-Tribune Readers Poll
PO Box 261209 • San Diego, CA 92196-1209 • (877) 732-2848 • sdccu.com
Federally insured by NCUA
REV. 07.11.17

Page 4 of 7

SMRH:481699080.6

FLY MILES PLUS REWARD PROGRAM
TERMS AND CONDITIONS
SDCCU is not liable for any loss or penalties incurred by Cardholder when a hotel, tour operator or cruise line is sold,
ceases to exist or becomes inoperative if a tour operator cancels a vacation package for acts of nature. Vacation package
components are subject to change without notice. We are not liable for amenities, services and/or facilities not being
available due to seasonal closings, renovations, strikes, bankruptcy and/or acts of nature. The Service Center assumes
no responsibility for advising guests of proper travel documentation.
CONSENT TO CONTACT
Cardholder consents to receiving calls, texts and other messages from SDCCU for any purpose (including this Program,
account/loan servicing, fraud alerts, collection, marketing etc.) on any phone number provided by the Cardholder or that
may reach the Cardholder, including via automatic telephone dialing system and/or artificial or pre-recorded voice.
Cardholder understands that such consent is not a condition of receiving any product and/or service from SDCCU.
CAR RENTALS
Renter must meet rental car company standard driver and credit qualifications at time and place of rental. Renter will be
required to execute a rental agreement at time of rental. The minimum age for rental of a vehicle is 25 years old unless
specifically approved by rental car provider. Advance reservations are required for Rewards rentals. The Cardholder must
provide a major credit card at the time of rental.
Rewards do not include taxes, insurance, extra drivers, optional service charges such as refueling or any other fees or
charges imposed by rental location and/or Cardholder. Cardholder may be provided a voucher or certificate as an
instrument of securing a rental vehicle. A voucher or certificate must be presented to rental car company at time of the
rental pickup. Vouchers and certificate are negotiable instruments for the purpose of securing car rental services and
cannot be replaced if lost, stolen or destroyed. No change or credit will be issued for unused portions of Rewards.
Traveler is subject to the restrictions and vehicle type listed on the voucher or certificate. Some blackout dates may apply.
Neither SDCCU nor TSYS LOYALTY are responsible for the performance of the car rental company. Additional terms and
conditions may be imposed by the respective rental car companies and are incorporated herein by reference. Participating
car rental companies and reward offerings are subject to change without notice. Advance reservations recommended.
Participating rental car companies and reward offerings are subject to change without notice.
FOR INTERNATIONAL RENTALS: Advance reservations are required at least 8 hours prior to departure from the U.S.
The U.S. Dollar value will be valued in local currency when Cardholder surrender the certificate at the time and place of
rental. Vouchers redeemed at participating international locations can only be used on non-prepaid Affordable Weekly
rates of at least one week but not longer than three weeks. Renters must present a valid driver license that has been held
for at least one year prior to rental. Vouchers are not a guarantee of performance or a confirmation of reservation. See
voucher for international terms.
HOTEL CERTIFICATES
Reward certificates, gift cheques, checks or currency certificates must be presented and surrendered at time of check-in
or time of transaction. Hotels and or resorts may require advance deposits to reserve accommodations. Accommodations
are subject to availability at time of reservations and blackout dates may apply due to seasonal periods or special events.
Reward certificates are not redeemable for cash and are void if sold for cash or other consideration. Reward certificates
are not refundable or replaceable if lost, stolen, destroyed or expired. Reward certificates are not redeemable and are
void if altered, photocopied or reproduced. Guest must present and submit the Reward certificate at check-in and may
not be valid where restricted by law. Length of stay restrictions may apply. Any tax liability, including disclosure, connected
with receipt or use of reward certificate is the recipient’s responsibility. The Reward certificate will not be extended beyond
the expiration date. Hotels or resorts may require advance deposits to reserve accommodations and may not include
resort fees or taxes. Participating properties are subject to change at any time without notice. SDCCU and TSYS
LOYALTY are not responsible for hotel performance.

Voted BEST Credit Union – San Diego Union-Tribune Readers Poll
PO Box 261209 • San Diego, CA 92196-1209 • (877) 732-2848 • sdccu.com
Federally insured by NCUA
REV. 07.11.17

Page 5 of 7

SMRH:481699080.6

FLY MILES PLUS REWARD PROGRAM
TERMS AND CONDITIONS
GIFT CARDS AND GIFT CERTIFICATES
Gift Cards/Certificates may be used to purchase goods or services at participating retailers and, where applicable, for
Internet purchases. Gift Cards/Certificates are non-transferable unless otherwise noted on the certificate. Gift
Cards/Certificates may not be combined with any other promotional offers from SDCCU. In the event goods or services
received are less than the face value of the Gift Card/Certificate redeemed, the policy of the Gift Card/Certificate provider
will determine whether credit or Gift Card/Certificate value for the difference will be given. Gift Cards/Certificates are valid
at participating reward supplier only, through the expiration date printed on the Gift Card/Certificate, except where
prohibited by law. Some Gift Cards/Certificates are limited to use inside the United States. Use of any Gift Card/Certificate
may be subject to additional restrictions as listed on the Gift Card/Certificate.
Gift Cards/Certificates are not replaceable if sent standard delivery method which is first class U.S. mail if lost
(not received), stolen, destroyed, or expired and are not returnable, exchangeable, refundable, or redeemable for
cash or credit under any circumstances.
Other trackable and expedited shipping options are available at nominal fees. Gift Cards/Certificates must be surrendered
at redemption, are void if altered, and no photocopies of Gift Cards/Certificates will be honored. Gift Cards/Certificates
have no value except when used in accordance with the Terms of the Program and Merchants participating in the
Program.
MERCHANDISE
Merchandise Rewards include applicable sales tax and shipping and handling (via First Class Mail, ground delivery or
motor freight service within the continental United States). Merchandise will not be delivered to PO, APO or FPO boxes.
Merchandise will be shipped to Cardholder's statement mailing address unless otherwise authorized by SDCCU.
For security reasons, parcel or motor freight couriers may contact Cardholder to arrange delivery of merchandise. It is the
responsibility of the Cardholder to respond to the courier in a timely and reasonable manner to facilitate the delivery
process. Additional shipping and handling fees for merchandise returned to vendor due to Cardholder's failure to make
delivery arrangements will be the responsibility of the Cardholder. Additional shipping costs for delivery of merchandise
Rewards to Alaska and Hawaii (if possible) will be the responsibility of the Cardholder.
Please allow 4 to 6 weeks for delivery from time of order. The Cardholder will be notified of any delays by postcard, letter
or phone call. All merchandise reward orders are subject to product availability and SDCCU reserves the right to substitute
merchandise of equal or greater value. Cardholder will be notified if the merchandise reward ordered is not available and
when it will become available. SDCCU reserves the right to alter or substitute any or all merchandise Rewards at any time
without prior notification. Returns are only accepted for merchandise that is damaged, defective or incorrectly shipped.
Notification of same must be made within 48 hours of delivery and must be returned within 30 days for credit or shipment
of replacement item. If the item is damaged or defective please contact the Service Center at (877) 587-8746 to report
the problem and obtain assistance. The manufacturer's warranty applies to all merchandise Rewards.
CASH BACK REWARDS
Points may be redeemed for an eligible cash reward (“Cash Reward”) option listed on the redemption website. The Points
required and the amount of the Cash Reward are set by SDCCU and may be changed at any time, for any reason, without
notice to Cardholder. Cash Rewards are allowed only at specific redemption levels. The Cash Reward option is received
by a credit to Cardholder’s SDCCU primary savings account. No fractional Cash Reward(s) will be issued upon redemption
of Points and any fraction will be rounded down to the nearest whole dollar. Cash rewards will be deposited into
Cardholder’s SDCCU savings account four to six weeks after the date of redemption of Points for the Cash Reward.
CHARITABLE CONTRIBUTIONS
Points may be redeemed and donated as charitable contributions to eligible charities as designated by SDCCU in its sole
discretion. Cardholder may donate 6,000 Points in exchange for a $50 donation to an eligible charity or 10,000 Points in
exchange for a $100 donation to an eligible charity. Participating charities are subject to change at any time, for any
reason, without notice to Cardholder. SDCCU may discontinue our relationship with any charity at any time, for any reason,
without notice to Cardholder. Cardholder should consult Cardholder’s tax advisor as to whether or not redemption of
Points towards a charity is tax deductible. All Points redeemed for charitable contributions are final. Points cannot be
refunded or returned.
Voted BEST Credit Union – San Diego Union-Tribune Readers Poll
PO Box 261209 • San Diego, CA 92196-1209 • (877) 732-2848 • sdccu.com
Federally insured by NCUA
REV. 07.11.17

Page 6 of 7

SMRH:481699080.6

FLY MILES PLUS REWARD PROGRAM
TERMS AND CONDITIONS
OTHER CONDITIONS
SDCCU AND TSYS LOYALTY SPECIFICALLY PROVIDE NO WARRANTY WHATSOEVER REGARDING ANY OF THE
REWARDS, PRODUCTS OR SERVICES THAT CARDHOLDER MAY REDEEM UNDER THIS PROGRAM, THE
PERFORMANCE OR NONPERFORMANCE OF ANY SUPPLIERS OF THE REWARDS, OR THAT ANY OF THE
REWARDS, PRODUCTS OR SERVICES REDEEMED WILL BE SUITABLE FOR CARDHOLDER’S PURPOSES.
SDCCU AND TSYS LOYALTY EXPRESSLY DISCLAIM ALL WARRANTIES REGARDING THE REWARDS,
PRODUCTS OR SERVICES, WHETHER EXPRESS, IMPLIED OR STATUTORY, INCLUDING WITHOUT LIMITATION
ANY IMPLIED WARRANTIES OF MERCHANTABILITY, FITNESS FOR A PARTICULAR PURPOSE, NONINFRINGEMENT OF THIRD PARTY RIGHTS, OR BASED ON COURSE OF CONDUCT OR TRADE CUSTOM OR
USAGE. SDCCU AND TSYS LOYALTY SHALL NOT BE LIABLE FOR ANY ACTUAL, DIRECT, INDIRECT, SPECIAL,
INCIDENTAL, CONSEQUENTIAL OR EXEMPLARY DAMAGES, WHETHER FORESEEABLE OR NOT, THAT ARE IN
ANY WAY RELATED TO ANY INJURIES OR PROPERTY DAMAGES CAUSED BY THE REWARDS, PRODUCTS OR
SERVICES OR ANY REWARDS' SUPPLIERS' FAILURE TO PROVIDE ANY REWARDS, PRODUCTS OR SERVICES,
AND/OR RELATED TO THESE TERMS AND CONDITIONS, THE BREACH THEREOF, THE USE OR INABILITY TO
USE ANY OF THE REWARDS, PRODUCTS OR SERVICES REDEEMED OR TO BE REDEEMED, CARDHOLDER’S
PARTICIPATION IN THE PROGRAM, ANY TRANSACTIONS RESULTING FROM THESE TERMS AND CONDITIONS,
LOSS OF GOODWILL OR PROFITS, LOST BUSINESS HOWEVER CHARACTERIZED AND/OR FROM ANY OTHER
CAUSE WHATSOEVER.
TRADEMARK
San Diego County Credit Union®, SDCCU®, the SDCCU logo, Fly Miles Plus™ Reward Program and other SDCCU marks
are trademarks of San Diego County Credit Union and may be registered. Other trademarks and trade names appearing
on the website with respect to any specific merchant Rewards are those of their respective owners.

Voted BEST Credit Union – San Diego Union-Tribune Readers Poll
PO Box 261209 • San Diego, CA 92196-1209 • (877) 732-2848 • sdccu.com
Federally insured by NCUA
REV. 07.11.17

Page 7 of 7

SMRH:481699080.6

